   




OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MOROCCO’S
DEMOCRACY AND
GOVERNANCE PROGRAM
AUDIT REPORT NO. 7-608-13-005-P
SEPTEMBER 30, 2013




DAKAR, SENEGAL 

                                   
 
 
 
 
 


 
 
Office of Inspector General 


September 30, 2013

MEMORANDUM

TO:       	          USAID/Morocco Mission Director, Dana Mansuri

FROM: 	              Regional Inspector General/Dakar, Abdoulaye Gueye /S/

SUBJECT:	            Audit of USAID/Morocco’s Democracy and Governance Program
                     (Report No. 7-608-13-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included them, without attachments, in
Appendix II.

The final report contains four recommendations to help improve the Democracy and
Governance Program. Based on management’s comments on the draft report and other
information provided to support corrective actions taken, we acknowledge management
decisions and final action on all recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit




U.S. Agency for International Development
American Embassy Dakar
Route des Almadies
Dakar, Senegal
http://oig.usaid.gov


 
                                                                                                     



CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Steering Committee Was Not Operating as Expected ........................................................... 4 


     Mission Did Not Document Data Quality Assessment ............................................................ 4 


     Required Language Was Not Included in Awards .................................................................. 5 


Evaluation of Management Comments..................................................................................... 7 


Appendix I—Scope and Methodology ...................................................................................... 9 


Appendix II—Management Comments ................................................................................... 11 





                                                                                                                                              
 



SUMMARY OF RESULTS 

According to USAID/Morocco’s fiscal year (FY) 2011 performance plan report, Morocco’s
version of the 2011 “Arab Spring” called for wide-ranging political reforms that resulted in
renewed attention by government officials to strengthen good governance practices: promote
transparency, accountability, citizen participation, and gender equity; and prepare young
Moroccans to take an active role in the development of the country. According to the same
report:

              As Moroccans continue to debate whether these reforms will translate into
              tangible and meaningful change in practice, the United States Government was
              well positioned to support the reform process through its extant civil society, local
              governance, and political party programming. Through USAID programs, the
              USG supported Moroccan citizens, especially youth and women, in engaging
              productively in advocating for political reform, building the capacity of local
              government to respond to new demands.

As part of its ongoing support to Morocco, in June 2005 USAID/Morocco launched a 4-year
Local Governance Program, implemented by RTI International. Almost 5 years later, in
February 2010, USAID/Morocco signed a follow-on 4-year, $14.7 million task-order contract with
RTI to implement a new program to facilitate more effective, accountable local governance in
Morocco. As of September 30, 2012, the mission had obligated $7.6 million and disbursed
$6.6 million for the program.

To achieve the objective, USAID is working in three areas:

1. Giving citizen more opportunities to participate in local governance.

2. Enhancing local governments’ ability to provide better services to citizens.

3. Encouraging increased accountability and transparency in local governance.

The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit to determine whether
USAID/Morocco is achieving its objective of increasing Moroccan citizens’ participation in
governance.

The audit found that USAID/Morocco’s Democracy and Governance Program made noteworthy
improvement and is on track to achieve its objective. Most completed activities met or exceeded
their expected results, and ongoing activities are succeeding for the most part. In 2012 the
mission reported that the program organized more than 120 events attended by more than
3,700 participants (including 1,100 women). Other activities are discussed below.

Internal Audit. The program succeeded in getting local governments to agree to incorporate
internal audit divisions into their structure. For example, the city of Sale completed a
vulnerability assessment and prepared an audit plan based on the assessment. According to
city officials, the commune1 president approved the plan, and the first audit was scheduled to
                                                            
1
 A commune is an administrative division. Administrative divisions have a certain degree of autonomy
and are required to manage themselves through their own local governments.

                                                                                                      1 
                                                                                                        
 


start by mid-2013.

At the request of the Direction Générale des Collectivités Locales (DGCL),2 program employees
helped develop a draft charter for auditors. The program also completed and translated into
Arabic a procedure manual for commune internal auditors; according to the subcontractor, the
manual will be integrated into the new commune operations manual that DGCL will make
available to all communes in Morocco.

Complaints and Mediation Management System. The program helped reestablish confidence
between the communes and their citizens by assisting selected communes in developing
complaints and mediation management system units. These units allow the communes to
improve how they handle citizen complaints by tracking them from the date they are filed to final
disposition. RTI officials said the system developed for the partner communes (El Jadida, Fez,
and Safi) would be provided to DGCL so they could be disseminated throughout the country.

Youth Activities Support in Communes. The program supported youth activities in selected
communes. It carried out surveys to identify needs and priorities, and developed responses to
concerns to encourage improving how youths are integrated in the communes.

The program reported that as of FY 2012, seven youth councils were established in the
communes, and more than 1,500 youths participated in program-sponsored activities. In
addition, more than 40 activities, including conferences and planning sessions, were organized
on civic participation and governance. According to partner officials, other communes are
creating councils, and the program launched a successful small grant program that promotes
partnership between communes and their youths.

Strengthening Roles of Elected Women. To support the leadership capabilities of elected
women, the program developed activities in the focus regions to (1) organize forums on local
governance to discuss gender equity, accountability, and participation, and (2) conduct
workshops on leadership to provide hands-on coaching and motivate elected women to set up
their own peer networks. In FY 2012 the program reported that more than 600 elected women
and their male associates participated in discussions with senior government officials through
these regional forums. RTI officials said these forums give women the opportunity to discuss the
challenges they face as they become active participants in local governance. The officials
added that the program was finalizing a training kit for elected women that will be given to
DGCL to distribute throughout the country.

Despite these positive results, the mission should address the following concerns to be sure that
all projects are viable.

	 DGCL has not supported the program as it was supposed to (page 4). This problem was
   listed by the mission as one of the key challenges in the implementation of the program in its
   FY 2012 annual report.

	 The mission did not have a documented data quality assessment (page 4). However, the
   mission mentioned that one was done in 2011.

	 Mandatory clauses and provisions were not included in some awards (page 5). The mission
       was aware of these, yet did not follow up to be sure they were included.
                                                            
2
    Direction Générale des Collectivités Locales is a division of the Moroccan Ministry of Interior.

                                                                                                       2 
                                                                                                         
 


To address these concerns, RIG/Dakar recommends that USAID/Morocco implement the
following recommendations.

1. 	Revise the memorandum of understanding with DGCL to reactivate and formalize the
    existence of the steering committee, and define its role and agenda (page 4).

2. 	Conduct a data quality assessment for activities under the Democracy and Governance
    Program, and maintain documentation of the assessment (page 5).

3. 	Review its active award portfolio to identify any awards that are missing the required
    environmental provisions and antitrafficking clauses, and implement a plan to include the
    missing provisions in future amendments to these awards (page 6).

4. 	 Require RTI to include the required environmental provision and antitrafficking clause in its
     active subawards (page 6).

Detailed findings appear in the following section, and Appendix I describes the scope and
methodology. Management comments will be in Appendix II, and our evaluation of them will be
on page 7.




                                                                                                3 
                                                                                                  
 



AUDIT FINDINGS 

Steering Committee Was Not
Operating as Expected
A steering committee that started with the first phase of the program (2005-2008) was carried
over to the current phase. The committee was made up of DGCL’s wali (director general), the
directors of DGCL departments, some provincial governors, and select commune presidents.

According to mission officials, DGCL’s role is to bring these officials together once a year
through the steering committee to discuss the program’s progress and make decisions about
adjustments and reorientation as needed. The committee met for the first time as part of the
new program in June 2010. However, it has not met again, despite repeated requests from
USAID/Morocco and RTI.

USAID officials noted DGCL’s lack of engagement as one of the key challenges in the
implementation of the program in its FY 2012 annual report, and said DGCL’s engagement was
important for the success of the program.

RTI officials explained that after the Arab Spring, the Moroccan Government made DGCL
responsible for drafting new strategic plans, a new or revised communal charter, and laws that
would allow local governments to carry out expanded responsibilities. Because of these
responsibilities, DGCL had less time to support program activities.

To make sure program activities were sustainable and had the greatest impact, RTI produced
training kits for each one at selected pilot communes. The kits contained information on
leadership development, commune partnerships with youth, internal audit functions, complaint
management and mediation systems, and guidance on implementing communications
strategies. The audit noted that RTI transferred or plans to transfer all of these to DGCL so they
can be disseminated nationally.

Getting DGCL officials to revive the steering committee and commit to helping the program
succeed—particularly at this stage—should ensure that the kits will be disseminated to
communes throughout Morocco. Therefore we make the following recommendation.

    Recommendation 1. We recommend that USAID/Morocco revise the memorandum of
    understanding with the Direction Générale des Collectivités Locales to reactivate and
    formalize the existence of the steering committee, and define its role and agenda.

Mission Did Not Document Data
Quality Assessment
USAID’s Automated Directives System (ADS) 203.3.11.3, “Conducting Data Quality
Assessments (DQAs),” requires missions to perform DQAs and recommends maintaining
written policies and procedures for data collection, maintenance, and processes. ADS
203.3.11.2 notes that the purpose of a DQA is to ensure that the mission/office and
development objective team are aware of the strengths and weaknesses of the data, and the
extent to the data can be trusted to influence management decisions.

                                                                                                4 
                                                                                                  
 


ADS 203.3.14.2 states that all USAID operating units must have conducted a DQA within the
past 3 years for all performance data reported to Washington. ADS 203.3.11.3 states that
missions should document the assessment, including decisions concerning data quality
problems and the steps taken to address them.

Data reported in USAID/Morocco’s annual performance plan and report for FY 2011 indicates
that the mission conducted a DQA that year. However, the audit team did not find documents in
the contracting officer representative’s (COR’s) files that support that a DQA was performed,
and the mission could not provide documented evidence of the DQA.

According to mission officials, staff turnover and rotations in the mission’s Office of Democracy
and Governance contributed to this lack of documentation. Although the current democracy and
governance team leader and COR confirmed through RTI officials that a DQA was performed in
2011, the mission’s former team leader and COR who conducted the DQA did not leave any
records or maintain any documentation to support such claim.

Maintaining adequate documentation is important for historical purposes, especially when the
responsibility for a program changes hands. The lack of a DQA increases the likelihood that
USAID will receive poor data that can result in poor decisions. To address these problems, we
make the following recommendation.

       Recommendation 2. We recommend that USAID/Morocco perform a data quality
       assessment for activities under the Democracy and Governance Program in accordance
       with USAID requirements and document the results.

Required Language Was Not
Included in Awards
Federal Acquisition Regulations (FARs) Subpart 22.17 and 52.222-50, both of which are called
“Combatting Trafficking in Persons,” require that specific language related to combatting human
trafficking be inserted in all solicitations and contracts.

ADS 204, “Environmental Procedures,” requires strategic objective teams and operating units to
incorporate factors and mitigation measures identified in environmental evaluation documents
into the design and implementation instruments for programs, projects, activities, or
amendments. The responsibilities of implementers regarding these environmental requirements
should be determined up front and explicitly enumerated in the solicitations and subsequent
awards before a project starts. Therefore, contracting or agreement officers must verify that
these requirements are incorporated into any contracts, grants, cooperative agreements, or
other mechanisms used to implement the activity.

The audit team found that two expired awards and two current ones in the democracy and
governance programs did not include the antitrafficking or environmental requirements.3 We
also noted that the initial environmental assessment for the program had a negative



                                                            
3
 The expired awards were 608-A-00-08-00044-00 and 263-I-00-00008-00. Award EPP-I-00-04-00037-00
does not contain the antitrafficking clause, and Award AID-608-LA-12-00001 does not contain the
environmental requirements. 

                                                                                               5 
                                                                                                 
 


determination4 with conditions, because activities under the small grant program to support
youth activities may have an impact on the environment. However, RTI did not submit an
environmental mitigation plan, as required under these circumstances.

According to mission officials, the failure to include the required clauses in these awards was an
oversight. USAID/Morocco was well aware of the omission of these required clauses and had
established a plan to correct these shortcomings. However, there was insufficient follow-up due
to staff turnover at the mission, and at the time of our audit, no specific action was taken to
modify or amend the active awards to include the required language on antitrafficking and
environmental compliance.

Because the mission did not comply fully with those requirements, its activities might have
adverse effects and hinder the program’s ability to meet its intended objectives. To strengthen
USAID/Morocco’s antitrafficking and environmental compliance, we make the following
recommendations.
 
   Recommendation 3. We recommend that USAID/Morocco review its active awards
   portfolio to identify awards missing the required antitrafficking and environmental
   language, and implement a plan to include the missing language in future amendments
   to these awards.

       Recommendation 4. We recommend that USAID/Morocco require RTI International to
       include the required antitrafficking and environmental language in all active subawards.




                                                            
4
  Under a negative determination with condition, the activity poses a very low risk of having significant
environmental impact if specified environmental mitigation and monitoring measures are implemented.
 

                                                                                                       6 
                                                                                                         
 




EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report and subsequent communication, USAID/Morocco agreed
with three of the report’s five recommendations. It disagreed with Recommendations 1 and 5.

After evaluating management comments, subsequent communication, and the supporting
documentation provided, we acknowledge management decisions on all recommendations.
The mission provided justification for its disagreement with Recommendations 1 and 5, and we
agreed with both decisions. Recommendation 5, involving an environmental mitigation plan for
activities under the small grant program, was deleted from the report.

Final action has been taken on all recommendations, and they are closed upon issuance of the
audit report. Our evaluation of management comments follows.

Recommendation 1. USAID/Morocco disagreed with this recommendation and provided
justification for its disagreement. Recommendation 1 involved reactivating and formalizing the
existence of a steering committee and defining its role and agenda. The mission commented
that although a steering committee did meet early on in the current local governance program,
such a committee was never part of the design or the program’s scope of work.

The mission looked into the suggested recommendation and does not believe it is feasible given
the current DGCL leadership. The directorate’s head, although supportive of the program and its
goals, appears not to be inclined to participate in a new steering committee. As a result, a
management decision has been reached and final action taken on this recommendation.

Recommendation 2. The mission agreed with and completed a DQA of the program
immediately following the audit on January 22, 2013. Based on the mission’s actions and
supporting documentation provided, we acknowledge that the mission has made a management
decision and final action has been taken on this recommendation.

Recommendation 3. USAID/Morocco agreed and modified all active awards in its democracy
and governance programs to include required environmental provisions and antitrafficking
clauses on June 17, 2013, and April 28, 2013, respectively. As a result, a management decision
has been reached and final action taken on this recommendation.

Recommendation 4. The mission agreed and asked RTI to modify its active subawards to
include environmental provisions and antitrafficking clauses on June 18, 2013. RTI confirmed its
commitment and modified all current subawards under the local governance program by
July 19, 2013. Based on the mission’s actions and supporting documentation provided, we
acknowledge that the mission has made a management decision and final action has been
taken on this recommendation.

Recommendation 5. USAID/Morocco disagreed with this recommendation and provided
justification for its disagreement. Recommendation 5 involved an environmental mitigation plan

                                                                                              7 
                                                                                                
 


for activities under the small grant program. The mission stated that although the initial
environmental assessment findings indicated a negative determination with conditions for the
small grant component, it stipulated the conditions and measures to mitigate potential
environmental impact, including the prohibition of grants for any construction or infrastructure
activities. As a result, an environmental mitigation plan for activities under the small grant
program is not required unless triggered by a small grant involving prohibited activities. We
agreed with mission justification and deleted Recommendation 5 from the report.




                                                                                              8 
                                                                                                
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Morocco’s Democracy and
Governance Program was achieving its objective of increasing Moroccan citizen participation in
governance. To implement the program, USAID signed a $14.7 million, 4-year task order with
RTI covering the period from February 16, 2010, through September 30, 2014. As of
September 30, 2012, USAID/Morocco had obligated $7.6 million and expended $6.6 million for
the program. The audit team tested the total expended amount as of September 30, 2012.

The audit covered the period from October 1, 2010, to September 30, 2012. In planning and
performing the audit, we assessed management controls related to documentation and data
verification; reporting; supervisory and management review of program processes and activities;
and review of performance measures and indicators. The controls we reviewed included the
program’s performance monitoring plan, the annual work plan, quarterly reports, progress
reports, COR files, and RTI’s contract.

We conducted audit fieldwork at USAID/Morocco and RTI’s office in Rabat. We visited program
beneficiaries in Fes, Kenitra, Moulay Yacoub, and Sale, and spoke with officials from Al Jadida.
The fieldwork took place from December 3 to December 21, 2012.

Methodology
To answer the audit objective, we reviewed reports and files that the mission and RTI
maintained as part of their program monitoring activities, including the contract, the performance
monitoring plan, the annual work plans, progress reports, site visit documentation, as well as the
results reported for all applicable indicators. We also reviewed applicable laws and regulations
and USAID policies and procedures pertaining to USAID/Morocco’s Democracy and
Governance Program. This included the Federal Managers’ Financial Integrity Act of 1982
certification, ADS 203 and 204, and FAR Subpart 22.17 and 52.222-50.

We interviewed key personnel from USAID/Morocco, RTI, subpartners, and the Moroccan
Government, as well as program beneficiaries such as civil society organizations, selected
communes’ officials, elected women, and representatives of youth groups that benefited from
the program. We obtained an understanding of the program and how USAID/Morocco
monitored and measured results. We observed USAID-funded assets to confirm their existence
and verify compliance with branding and marking requirements.

We also performed site visits to meet with RTI’s regional coordinators, commune officials, and
beneficiaries. During these visits, we observed activities in progress, interviewed individuals
who were conducting the activities, and interviewed beneficiaries. We judgmentally selected a

                                                                                                9 
                                                                                                  
                                                                                        Appendix I


sample of activities to validate data reported by RTI \and document attributes of monitoring by
mission and the implementing partner. The sample consisted of activities that were in progress
during the time of our field work and that were located in Fez, Kenitra, Moulay Yacoub, and
Salé. These activities included roundtable discussions on the role of internal audits, civic
participation, gender equity, and complaint management systems. Since we tested a judgmental
sample, the related test results are limited to the activities tested and cannot be projected to the
entire audit universe. However we believe that our work provided a reasonable basis for our
conclusions.




                                                                                                 10 
                                                                                                    
                                                                                        Appendix II



MANAGEMENT COMMENTS 



DATE: 	        June 17, 2013

TO: 	          Abdoulaye Gueye, Regional Inspector General (RIG), Dakar

FROM: 	        John Groarke, USAID/Morocco Mission Director

SUBJECT:	 Draft Report of RIG Audit of USAID/Morocco Democracy and Governance
          Programs (Report No 7-608-13-00X-P)

This memo formally acknowledges receipt of the draft report on the RIG audit performed
December 3-21, 2012 on USAID/Morocco’s Democracy and Governance Programs as requested
on May 24, 2013. The Mission appreciates the work of the audit team. They consistently
engaged staff and partners alike to perform a professional and thorough review of the programs.

After careful review of the RIG draft audit report, the Mission agrees with three out of the five
audit recommendations. The Mission has already implemented different actions in order to
strengthen internal control for these important issues and for the closure of recommendations.
Please consider the information provided in order to address the closure of the recommendations.

USAID/Morocco requests RIG/Dakar concurrence with the actions described in detail below.

Recommendation #1: Revise the memorandum of understanding with the General
Directorate of Local Government (DGCL) to reactivate and formalize the existence of the
steering committee, and define its role and agenda.

Request for removal of this recommendation:

Although there was a regular steering committee as part of the first Local Governance Project
(LGP) (2005-2008), and a steering committee did meet early on in the current LGP, such a
committee was never part of the design or scope of work for current LGP. Rather, the design
team focused on achieving the same results through an approach for the current LGP which
coordinates closely with individual leaders within the DGCL. As such, USAID/Morocco
believes this recommendation is evaluating the activity on a task that is outside of the design and
outside of the scope of the work plan. While there are many ways to achieve similar results, the
design of LGP was based on what was feasible and possible given the environment at the time.
USAID/Morocco does not concur that the recommendation is within the scope of the audit and
requests that the recommendation be removed prior to issuing the final report.

                                                                                                    11 
                                                                                                       
                                                                                        Appendix II



Furthermore, USAID/Morocco has looked into the RIG's suggestion and does not believe it is
feasible to sign an MOU to formalize a steering committee given current DGCL leadership. The
success of the steering committee in the previous LGP was largely due to the Wali (Director) of
the DGCL at the time who personally attended meetings and was very engaged in the project. In
addition to being tasked with multiple new responsibilities relating to government reform
initiatives (as noted in the audit report), the current DGCL has new leadership with a different
leadership style. The current Wali, although consistently supportive of the project and its goals,
appears not to be inclined to participate in a new steering committee.

As a result, USAID/Morocco requests that Recommendation #1 be removed from the report.


Recommendation #2: Conduct a data quality assessment for activities under the democracy
and governance program, and maintain documentation of the assessment.

Closure Request:

Immediately following the RIG audit, the DG Team completed a thorough Data Quality
Assessment (DQA) on the Local Governance Program. This DQA was signed by the DG Team
Leader on January 22, 2013. Attachment 1 contains the signed/approved documentation of the
DQA.

On that basis, we kindly request that the recommendation be closed upon issuance of the final audit
report.


Recommendation #3: Review its active award portfolio to identify awards missing the
required environmental provisions and anti-trafficking clauses; and implement a plan to
include the missing provisions in future amendments to these awards.

Closure Request:

Since the audit was conducted, USAID/Morocco has modified all active awards in its DG
portfolio to include required environmental provisions and anti-trafficking clauses. The Office
of Acquisitions and Assistance has since added the required environmental provisions and anti-
trafficking clauses to the basic Mission-wide templates for contracts and awards to insure these
provisions are included in all future awards at USAID/Morroco.

Attachment 2 contains the modifications adding the relevant provisions to the contract with RTI
and the agreement with the National Democratic Institute (the only two projects affected by this
recommendation in the DG portfolio).

On that basis, we kindly request that the recommendation be closed upon issuance of the final audit
report.



                                                                                                 12 
                                                                                                    
                                                                                       Appendix II



Recommendation #4: Require Research Triangle Institute to include the required
environmental provision and anti-trafficking clause in its active sub-awards.

Closure Request:

Since receipt of the initial draft report, Research Triangle Institute has been requested to modify
its active sub-awards to include environmental provisions and anti-trafficking clauses. Although
this action is in process, Research Triangle Institute has assured USAID/Morocco that all sub-
awards will be modified to comply with this recommendation by July 19, 2013. Such provisions
and clauses will be included in any future sub-awards.

Attachment 3 contains documentation of Research Triangle Institute’s commitment to complete
modifications by July 19, 2013.

USAID/Morocco kindly requests that the recommendation be closed (pending documentation
showing compliance) upon issuance of the final audit report.


Recommendation #5: Require that Research Triangle Institute submits an environmental
mitigation plan for activities under the small grant program.

Request for removal of this recommendation

An Initial Environmental Examination (IEE) was conducted and signed on January 4, 2010 for
LGP which covers all activities under the project. The IEE findings indicate a categorical
exclusion for all activities except for the small grants component of the project which received a
“negative determination with conditions”. The IEE stipulates the conditions and measures to
mitigate potential environmental impact of the small grant program including the prohibition of
grants for any construction or infrastructure activities and substantial involvement of USAID in
approving small grants. As a result, an environmental mitigation plan for activities under the
small grants program is not required by the IEE unless triggered by a small grant that involves
prohibited activities such as construction or infrastructure activities.

USAID/Morocco therefore requests that Recommendation #5 be removed from the report.


We are providing, as requested, a signed and unsigned electronic copy of this memorandum.



Attachment 1: DQA for LGP
Attachment 2: Award Provisions and Amendments for DG portfolio
Attachment 3: Email from LGP indicating commitment to resolve Recommendation 4




                                                                                                 13 
                                                                                                    
                                                   




    U.S. Agency for International Development 

           Office of Inspector General 

          1300 Pennsylvania Avenue, NW 

              Washington, DC 20523 

                Tel: 202-712-1150 

                Fax: 202-216-3047 

               http://oig.usaid.gov

                                                   
